                     UNCLASSIFIED

  United States Department of State


and the Broadcasting Board of Governors


        Ofﬁce of Inspector General






                Ofﬁce of Audits



 Independent Accountants' 

     Report on Audit of


  International Boundary 

  and Water Commission: 

    Contract Award and 

   Management of Funds 

 Provided by the American 

Recovery and Reinvestment 

            Act


 Report Number AUD/CG-10-21, June 2010

                               IMPORTANT NOTICE


This report is intended solely for the ofﬁcial use of the Department of State or the
Broadcasting Board of Governors, or any agency or organization receiving a copy
directly from the Ofﬁce of Inspector General. No secondary distribution may be
made, in whole or in part, outside the Department of State or the Broadcasting
Board of Governors, by them or by other agencies or organizations, without prior
authorization by the Inspector General. Public availability of the document will be
determined by the Inspector General under the U.S. Code, 5 U.S.C. 552. Improper
disclosure of this report may result in criminal, civil, or administrative penalties.




                       UNCLASSIFIED


                                                     UNCLASSIFIED


                               United States Department of State


                            and the Broadcasting Board of Governors


                                   Office of Inspector General




                                                  Office of Audits



                       Independent Accountants’ Report on
             Audit of International Boundary and Water Commission: 

            Contract Award and Management of Funds Provided by the


                    American Recovery and Reinvestment Act 


                               Report Number AUD/CG-10-21, June 2010



Kearney & Company, P.C., performed this audit under Department of State, Office of
Inspector General, Contract No. SAQMMA09D0002, and by acceptance the report
becomes a product of the Inspector General.




                                                                        ______________________________
                                                                        Harold W. Geisel
                                                                        Deputy Inspector General


                                                                        6/22/2010_____________________
                                                                        Date



                                                IMPORTANT NOTICE

This report is intended solely for the official use of the Department of State, Broadcasting Board of Governors, or
any agency or organization receiving a copy directly from the Office of Inspector General. No secondary
distribution may be made, in whole or in part, outside the Department of State, the Broadcasting Board of
Governors, or by other agencies or organizations without prior authorization by the Inspector General. Public
availability of the document will be determined by the Inspector General under the U.S. Code, 5 U.S.C. 552.
Improper disclosure of this report may result in criminal, civil, or administrative penalties.


                                                     UNCLASSIFIED


     INTERNATIONAL BOUNDARY AND WATER 

                COMMISSION



Contract Award and Management of Funds Provided by the


    American Recovery and Reinvestment Act of 2009






                                       Point of Contact:
                                    David Zavada, Partner
                                 4501 Ford Avenue, Suite 1400
                                     Alexandria, VA 22302
                              703-931-5600, 703-931-3655 (fax)


                                   dzavada@kearneyco.com


        Kearney & Company’s TIN is 54-1603527, DUNS is 18-657-6310, Cage Code is 1SJ14


                     Contract is SAQMMA09D0002 Task Order is SAQMMA10F0504 

KEARNEY&                                                 1701 Duke Slreet, Suite 500. Alexandria, VA 22314
COMPANY _ _______________                                PH_:_70_3__1_600
                                                                 .93 .5_ _ ,_ f_X_
                                                                                 : 7__.9
                                                                                    03 _3_1._36_55_,_www
                                                                                                      _ _ .__
                                                                                                          kearne
                                                                                                              _ ,,-yco_._
                                                                                                                      com_




March 30, 2010


Mr. Harold W, Geisel, Acting Inspector General
U.S, Department of State
Office of the Inspector General
2201 C Street, N.W.
Washington, DC 20520


Kearney & Company, P.c. (Kearney) is pleased to submit this performance audit report related
to the International Boundary and Water Commission' s (IBWC) compliance with Federal, U,S,
Department of State (Department), and ARRA acquisition management practices. Kearney
evaluated the IBWC' s performance in complying with the source selection process, pre-/post­
award process, contract administration and management controls for contracts funded through
the ARRA of2009. This performance audit was designed to meet the objectives identified in the
Objectives section and Appendix A, Scope and Methodology of this report.

We conducted this performance audit from January 18,2010 through March 30, 2010, in
accordance with Government Auditing Standards issued by the Comptroller General of the
United States. The purpose of this report is to communicate the results of our performance audit
and the related findings and recommendations.

We would like to thank the Department Offices involved for their cooperation during the course
of this engagement.




Kearney & Company, P.C,
                                              TABLE OF CONTENTS



Executive Summary ..................................................................................................... 1


Background ................................................................................................................. 1


Objectives, Scope, and Methodology ........................................................................... 2


Audit Findings and Recommendations ......................................................................... 3


  FINDING 1 – CONTRACTOR ELIGIBILITY/QUALIFICATIONS ARE NOT ALWAYS ABLE TO BE DETERMINED 4


  FINDING 2 – DOCUMENTATION OF CONTRACT NEGOTIATIONS NEEDS TO BE IMPROVED................... 6


  FINDING 3 – CONTRACT MONITORING IS NOT IN COMPLIANCE WITH CURRENT SYSTEM ................... 7


  FINDING 4 – OTHER REPORTING COMPLIANCE MATTERS NEED TO BE ADDRESSED........................... 8


Acronym List .............................................................................................................. 10


Appendix A - International Boundary and Water Commission Response .................... 11


EXECUTIVE SUMMARY

At the request of the Office of Inspector General (OIG), U.S. Department of State (Department),
Kearney and Company, P.C. (Kearney), evaluated the International Boundary and Water
Commission‘s (IBWC) performance in complying with the source selection process, pre-/post-
award process, and contract administration and management controls for contracts with funds
provided by the American Recovery and Reinvestment Act (Recovery Act) of 2009.
Performance was assessed using the Recovery Act requirements as established by the April 3,
2009, Office of Management and Budget (OMB) Memorandum M-09-15, Updated
Implementing Guidance for the American Recovery and Reinvestment Act of 2009 (M-09-15);
other OMB guidance; the Federal Acquisition Regulation (FAR); and the IBWC Acquisition
Division Administration of ARRA (Recovery Act) Requirements and Agency Review of
Recipient Reporting Standard Operating Procedure (SOP).

We found that IBWC had implemented additional policies and procedures specific to the
Recovery Act. IBWC took significant steps to implement and execute these policies and
procedures and to comply with OMB and FAR guidance. However, we noted exceptions
evidencing areas where IBWC procedures should be enhanced to ensure full compliance with
Recovery Act objectives as follows:

      Contractor eligibility/qualifications are not always able to be determined.
      Documentation of contract negotiations needs improvement.
      Contract monitoring is not in compliance with current system.
      Other reporting compliance matters need to be addressed.

To enhance internal controls and to help ensure that OMB Recovery Act objectives are met, we
recommended that

      IBWC management implement additional procedures and requirements to ensure that the
       monitoring of Recovery Act contracts is fully documented.
      IBWC contracting officers properly document price negotiations.
      IBWC contracting officers ensure that all required vetting actions are executed,
       documented, and properly filed prior to contract award.
      IBWC contracting officers ensure that ―Notices to Prime Recipients‖ are issued and
       transparency reporting requirements are met timely.

In its May 14, 2010, response to the draft report, IBWC agreed with all of the report‘s
recommendations. (The response is in Appendix A.)


BACKGROUND
IBWC is an organization operated jointly by the United States and Mexico to monitor the U.S.–
Mexico border, establish boundary and water treaties, and settle boundary and water quality

                                                1
disputes. IBWC consists of two independent oversight bodies: the U.S. Section and the
Mexican Section. The U.S. Section receives its guidance from the Department, and the results of
its operations are included in the Department‘s annual consolidated financial statements. Both
sections work closely to achieve the objectives of the organization.

U.S. Section mission operations include the following:

      Develop and maintain flood control levee systems.
      Maintain the safety of dams.
      Develop and maintain the diversion of dams and related structures.
      Develop and maintain storage dams (reservoirs)/power plants.
      Develop and maintain wastewater treatment plants.
      Operate field offices.
      Manage the Texas Clean Rivers Program.
      Issue emergency management alerts.

Many projects are required to accomplish the mission of IBWC. The Recovery Act was signed
into law on February 17, 2009, and provided funding for IBWC to assist in the accomplishment
of the IBWC mission. The $787 billion Recovery Act resulted in $220 million for IBWC to fund
the Rio Grande Flood Control System Project. Identification and prioritization of projects are
the outcome of ongoing environmental evaluation, geo-technical investigations, and necessity of
repairs and/or rehabilitation of the flood control system. Projects will result in the repair and/or
rehabilitation of levee segments raised to original design level and reconstruction of segments
where the integrity of the structures is compromised. Over 3 million Texas and New Mexico
residents are protected by the Rio Grande flood control systems.

In 2001, the geo-technical analysis resulted in a determination that 60 percent of the Rio Grande
flood control system was deficient. IBWC has been addressing these deficiencies with available
funds. The Recovery Act will allow for the repair and/or rehabilitation to progress at a much
improved pace. A large percentage of needed levee raising and structural rehabilitation to meet
Federal Emergency Management Agency standards will be completed as a result of Recovery
Act funding.

To move forward with the Rio Grande flood control system projects, IBWC issues competitively
bid contracts and awards firm-fixed-price contracts. Contracts will be awarded to the technically
acceptable source that submits the lowest bid. The Rio Grande project will be conducted in two
phases: the pre-construction phase and the construction phase. Pre-construction consists of geo-
technical investigations, environmental documentation, and design. Construction is based upon
specifications resulting from the pre-construction phase.

OBJECTIVES, SCOPE, AND METHODOLOGY

At the request of the Department‘s OIG, we assessed IBWC‘s source-selection process, pre-
/post-award process, and contract administration and management controls over Recovery Act


                                                 2
contracts. Performance for this engagement was assessed using the Recovery Act requirements
established in M-09-15, other OMB guidance, the FAR, and the IBWC SOP as the criteria. We
also obtained supporting documentation to determine whether IBWC was compliant with
Recovery Act financial and reporting requirements.

We conducted this performance audit from January through March 2010 in accordance with
generally accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objectives.

The purpose of this audit was to determine the performance of IBWC related to the source
selection, pre-/post-award, and contract administration and management controls phases in
relation to contracts issued with Recovery Act funds. For the solicitation phase, we reviewed
planning effectiveness, competition maximization, appropriate solicitation, proper publications,
use of firm-fixed-price contracts, small and disadvantaged business practices, and proposal
evaluation criteria. For the pre-/post-award phase, we reviewed the timeliness of award issuance,
contractor selection, sufficiency of transparency, and reporting of award information. For the
contract administration and management controls phase, we reviewed selected contracts use and
status of funds, cost and schedule overruns prevention, performance of funding recipients,
timeliness of expenditures, minimization of improper payments, and effectiveness of records
management.

To properly assess the performance of the various phases, we obtained supporting documentation
for a sample of contract task orders funded with Recovery Act monies issued prior to December
31, 2009. The population consisted of 26 task orders, valued at $144 million, from 16 unique
contracts. We selected the 11 highest dollar amount task orders and an additional five random
task orders to obtain a total sample of 16 task orders from 11 unique contracts. These 16 task
orders resulted in 98.5 percent coverage of the contract dollar amounts and were valued at $141
million.

The Government Accountability Office Financial Audit Manual, section 450, provides guidance
pertaining to acceptable sample sizes and error rates for typical internal control samples.
Although this sample is not an internal control sample, it also does not fit the criteria for a
substantive sample, and internal control criteria are more relevant. In internal control testing, a
sample size of 45 items results from the use of a 90 percent confidence level and a 5 percent
tolerable error rate with zero deviations expected. As IBWC does not have 45 items to test, we
will require zero deviations to conclude that performance over the solicitation, award, and
monitoring activities related to Recovery Act funds are acceptable.

AUDIT FINDINGS AND RECOMMENDATIONS

Contracts and subsequent task orders associated with the Recovery Act call for increased
transparency and accountability. IBWC has developed an SOP for the Administration of


                                                 3
Recovery Act Requirements and Agency Review of Recipient Reporting. This SOP briefly
explains the actions that should be taken by the Acquisition Department in issuing contracts
involving Recovery Act funds.

IBWC has a document that includes policies and procedures for soliciting, awarding, and
administering all contracts issued. The policies and procedures cover the assignment of a
purchase request number, completion of an Independent Government Estimate, determination of
small and disadvantaged business use, the FAR, review of solicitations and amendments,
evaluation of bids/offers, determination of responsibility for the successful bidder/offeror, review
of contract documents, contract award, publication on Federal Business Opportunities and
Federal Procurement Data System, review of contract modifications, review of weekly and
monthly monitoring reports, and contract completion. In addition, IBWC does have adequate
SOPs in place over the acquisition procedures related specifically to Recovery Act funds. While
IBWC does have policies and procedures in place, we noted several issues that IBWC must
address to ensure compliance with OMB guidance and the FAR. The issues and the specific
findings and associated recommendations are as described.

Finding 1 – Contractor Eligibility/Qualifications Are Not Always Able To Be Determined

IBWC was not able to properly analyze and determine the qualifications of a future awardee
because requisite documentation was not available in the contract files or required searches were
not completed within an acceptable timeframe. Specifically, we noted the following:

   		   For one of 11 contracts awarded, or for one of 16 task orders, the mandatory pre-bid/site
         inspection meeting contract attachment was not provided. Upon further inquiry, IBWC
         was able to provide a sign-in sheet evidencing that the contractor had attended the
         meeting. However, the documentation referenced in the contract was not available.
        For one of 11 contracts awarded, or for six of 16 task orders, the Excluded Parties List
         System (EPLS) search was dated after the date of contract award.
        For two of 11 contracts awarded, or for two of 16 task orders, the D&B (formerly Dun &
         Bradstreet) report was not provided.
        For one of 11 contracts awarded, or for one of 16 task orders, the EPLS search was dated
         prior to the solicitation date.
        For two of 11 contracts awarded, or for two of 16 task orders, the evidence of IBWC‘s
         review of the contractor‘s responsibility prior to award was not provided. Upon further
         inquiry, IBWC provided other documentation to support contractor responsibility.
         However, this information was dated after contract award.

Without stronger vetting of contractors, the potential to involve the Government in a contract
with an unqualified party exists. In addition, contract requirements may not be adequately
satisfied without a qualified contractor.

Because of the highly technical nature of the work required under the contract, IBWC requires
all bidders to attend a mandatory site visit and pre-bid conference prior to submitting a bid. This


                                                 4
requirement is included in the solicitation of contract under Section L, ―Instructions, Conditions
and Notices to Bidders.‖ In addition, Section M.2, ―Mandatory Pre-Bid Conference and Site
Visit,‖ states: ―Offerors must attend the mandatory site visit and pre-bid conference at the time
designated in Section L, Items L.7 and L.8, respectively. Offers will not be accepted from firms
that do not do so.‖

The FAR (subpt. 9.4, ―Debarment, Suspension, and Ineligibility,‖ sec.9.404(a)(3)) states, ―Each
agency must—(7) Establish procedures to ensure that the agency does not solicit offers from,
award contracts to, or consent to subcontracts with contractors whose names are in the EPLS,
except as otherwise provided in this subpart.‖ IBWC considers searches made between the time
the solicitation is issued to the time of award to be a proper timeframe to meet this requirement.
This length of time can vary significantly, at times up to 9 months.

The Dun and Bradstreet report is commonly used by Government agencies, including IBWC, as
part of the review of the responsibility of prospective contractors for compliance with the FAR.
The FAR (subpt. 9.1, ―Responsible Prospective Contractors,‖ sec. 9.104-1, ―General Standards‖)
states, ―To be determined responsible, a prospective contract must (a) have adequate financial
resources to perform the contract or the ability to obtain them . . . [and] (e) have the necessary
organization, experience, accounting and operation controls, and technical skills, or the ability to
obtain them.‖

       Recommendation 1
       We recommend that International Boundary and Water Commission (IBWC) contracting
       officers ensure that contracts are not awarded until all required vetting actions are
       executed, documented, and properly filed. Implementation of a peer review by a fellow
       contracting officer before a contract is awarded should be required to ensure that all
       contracting officers maintain the required documentation prior to award. This review
       should be documented and dated before the contract is awarded. IBWC should also
       implement a restriction on the time that search results, such as Excluded Party List
       Systems, are valid (for example, 6 months). The time between solicitation and contract
       award can be substantial, and a new search may result in different results.

       IBWC Response: IBWC ―generally concurs‖ with the recommendation, stating that
       IBWC contracting officers ―will ensure that contracts are not awarded until all required
       vetting actions are executed, documented, and properly filed.‖ IBWC further stated that
       the action will be accomplished by implementing ―an ‗awards checklist,‘ which
       incorporates the pre-award qualification requirements, coupled with IBWC‘s established
       peer review process‖ contained in IBWC‘s Policy and Procedures Manual, dated May 6,
       2010. According to IBWC, the reviews will be ―documented and dated before the
       contract is awarded,‖ and the requirement for the awards checklist to be in place before
       contract award ―is being incorporated into IBWC Acquisitions ARRA SOP.‖




                                                 5
       OIG Analysis: OIG considers the recommendation resolved, pending receipt and review
       of documentation showing that IBWC has incorporated the ―awards checklist‖ into its
       IBWC Acquisitions ARRA SOP.

Finding 2 – Documentation of Contract Negotiations Needs To Be Improved

IBWC issued an indefinite-delivery, indefinite-quantity architect-engineer services contract in
2005 in which subsequent tasks were issued and funded with Recovery Act funds. Under the
requirements in the FAR for this contract, the contractor, when a task order is issued, is
requested to prepare a proposal to include the price. IBWC then analyzes the price proposal and
documents the results and the price suggestion. Price negotiation will then occur between IBWC
and the contractor to result in a final agreement on price, and this process is then documented.
We noted that for one of 11 contracts, or for five of 16 task orders sampled, evidence of price
negotiation was not documented and maintained in the contract files. On March 18, 2010, IBWC
noted that memorandums documenting the price negotiations ―will be accomplished within the
next 90 calendar days.‖ With this timeframe, documentation may not be completed until a year
after the task order has been issued, since all five task orders had been issued since May 2009.

The process IBWC used did not provide evidentiary support that the Government provided
sufficient opportunity to determine whether it received the best value, including the best price.

The FAR (sec. 15.406-3, ―Documenting the Negotiation‖) states:
   (a) The contracting officer shall document in the contract file the principal elements 

       of the negotiated agreement. The documentation (e.g., price negotiation 

       memorandum (PNM)) shall include the following:


       (2)		 A description of the acquisition, including appropriate identifying numbers.
       (7)		 A summary of the contractor‘s proposal, any field pricing assistance
              recommendations, including the reasons for any pertinent variances from
              them, the Government‘s negotiation objective, and the negotiated position.
              Where the determination of price reasonableness is based on cost analysis,
              the summary shall address each major cost element. When determination of
              price reasonableness is based on price analysis, the summary shall include
              the source and type of data used to support the determination.
       (8)		 The most significant facts or considerations controlling the establishment of
              the pre-negotiation objectives and the negotiated agreement including an
              explanation of any significant differences between the two positions.
       (9)		 To the extent such direction has a significant effect on the action, a
              discussion and quantification of the impact of direction given by Congress,
              other agencies, and higher-level officials
       (10)		 The basis for the profit or fee pre-negotiation objective and the profit or fee
              negotiated.
       (11)		 Documentation of fair and reasonable pricing.




                                                  6
         Recommendation 2
         We recommend that the International Boundary and Water Commission contracting
         officers ensure that all task orders subject to price negotiations are properly documented
         to determine that the Government has obtained the best value in compliance with the
         Federal Acquisition Regulation.

         IBWC Response: IBWC ―generally concurs‖ with the recommendation, stating that the
         ―awards checklist‖ referred to in Finding 1 of this report also requires ―documented price
         negotiations prior to award of the contract action consistent with‖ IBWC‘s Policy and
         Procedures Manual ―to ensure that the Government has obtained the best value in
         compliance with the Federal Acquisition Regulation.‖

         OIG Analysis: OIG considers the recommendation resolved, pending receipt and review
         of documentation showing that IBWC has incorporated the ―awards checklist‖ into its
         IBWC Acquisitions ARRA SOP, which requires that price negotiations be documented
         before a contract is awarded.

Finding 3 – Contract Monitoring Is Not in Compliance With Current System

IBWC has implemented a quality assurance system requiring proper monitoring procedures to
ensure that contracts comply with applicable Recovery Act and other Federal laws and
regulations. This system requires that contracting officer‘s representatives complete weekly and
monthly monitoring reports. We noted instances where documentation was not in compliance
with this system as follows:

   		   For one of 11 contracts, or for five of 16 task orders, an invoice was not paid within 30
         days of the invoice date.
   		   For two of 11 contracts, or for seven of 16 task orders, adequate monitoring
         documentation was not received. In particular, for four of the seven task orders, a draft
         monitoring memorandum was completed as of March 17, 2010 (2 days after a follow-up
         request for monitoring documentation was made). This report encompasses 6 months of
         activity for the four task orders. Upon further inquiry, IBWC provided contracting
         officer reports for three of the four task orders. In addition, for three of the seven task
         orders, no monitoring documentation was received. Follow-up responses by IBWC
         indicated that documentation was attached or was forthcoming; however, no
         documentation was provided. Upon further inquiry, IBWC was able to provide
         contracting officer reports for two of the three task orders. However, contracting
         officer‘s representatives‘ reports or monthly meeting minutes were not able to be
         provided for all seven task orders for the month selected for testing.

Inadequate monitoring may result in the contractor‘s failing to meet contractual deadlines,
perform work adequately, or perform work in accordance with contract specifications. In that
regard, Memorandum M-09-15 (sec. 6, ―Contracts,‖ subsec. 6.3) states:



                                                  7
       Agencies must provide for appropriate oversight of contracts to ensure outcomes
       that are consistent with and measurable against agency plans and goals under the
       Act. . . . In addition, agencies should actively monitor contracts to ensure that
       performance, cost, and schedule goals are being met.

       Recommendation 3
       We recommend that International Boundary and Water Commission management
       implement additional procedures and requirements to ensure that the monitoring of
       Recovery Act contracts is fully documented. These procedures should require
       contracting officers to ensure that all contracts are monitored timely and consistently
       through the evidence of documentation that is completed by the contracting officer‘s
       representative. Monitoring documentation should be completed before invoices are
       approved to ensure that invoices are not improperly approved and paid. In addition,
       contracting officers should sign off on the monitoring reports to indicate their review.

       IBWC Response: IBWC ―generally concurs with the observations and
       recommendations‖ in the report and stated that it is ―in the process of modifying the
       existing ‗payment checklist,‘ which requires the submission of monthly reports prior to
       submitting payment requests to ensure payments are properly reviewed prior to issuing
       payment.‖ IBWC further stated that it will document the monitoring of Recovery Act
       contracts and that contracting officers will sign off on the monthly progress reports ―to
       indicate proper reviews have been conducted.‖ In addition, according to IBWC,
       ―[r]evisions to existing procedures will require contracting officers to ensure that all
       contracts are reviewed monthly and that all required documentation is completed by the
       contracting officer‘s representative consistent with the IBWC Policy and Procedures
       Manual.‖ IBWC also stated that the monitoring of documentation ―will be completed
       before invoices are approved to ensure that invoices are not improperly approved and
       paid‖ and that ―contracting officers should sign off on the monitoring reports to indicate
       their review.‖

       OIG Analysis:, OIG considers the recommendation resolved, pending receipt and review
       of documentation showing that IBWC has modified its existing ―payment checklist.‖

Finding 4 – Other Reporting Compliance Matters Need To Be Addressed

IBWC was unable to provide a ―Notice to Prime Recipient‖ document for one of 11 contracts, or
for one of 16 task orders. This document provides the contractor formal notice of the
contractor‘s responsibilities prior to beginning work. The Notice is required by the
IBWC Acquisition Division Administration of ARRA (Recovery Act) Requirements and Agency
Review of Recipient Reporting SOP (sec. 3.1, ―ACO Responsibilities‖). Although the contract
includes references to the additional requirements of the Recovery Act, the Notice provides
additional clarity to assist contractors in meeting the reporting requirements under the Recovery
Act.



                                                8
Also, for three of 11 contracts, or for eight of 16 task orders sampled, the task order was not
posted to the Web site FPDSNG.com timely. The IBWC Recovery Act SOP (sec. 3.1.2, ―ACO
Responsibilities‖) states, ―Submit the required FPDS report into FPDSNG.com within 48 hours
of award.‖ The transparency emphasized in the Recovery Act and supported by the IBWC SOP
was not met with timely reporting in these instances.

       Recommendation 4
       We recommend that International Boundary and Water Commission (IBWC) contracting
       officers ensure compliance with criteria contained in Office of Management and Budget
       Memorandum (OMB) M-09-15, other OMB guidance, the Federal Acquisition
       Regulation, and the IBWC Acquisition Division Administration of ARRA (Recovery
       Act) Requirements and Agency Review of Recipient Reporting SOP (Standard Operating
       Procedures). Implementing a routine review of the contract files can ensure that all
       contracting officers maintain all required documentation related to the award and that
       transparency reporting requirements are met timely.

       IBWC Response: IBWC ―generally concurs with the observations and
       recommendations,‖ stating that it ―will continue to comply‖ with M-09-15 and the
       Federal Acquisition Regulation. IBWC stated that it will ―provide monthly updates and
       training‖ to ARRA contracting officers to ensure full compliance with IBWC Acquisition
       Division Administration of ARRA requirements and Agency Review of Recipient
       Reporting SOPs. In addition, it will incorporate annual training into the employee
       development plans of contracting officers and contracting officers‘ representatives, and it
       stated that acquisition staff ―is required to review applicable authorities.‖ IBWC further
       stated, ―Mandatory documented review of all ARRA contract files will be performed to
       ensure that all contracting officers maintain all required documentation related to the
       award and that transparency reporting requirements are met timely.‖

       OIG Analysis: OIG considers the recommendation resolved, pending receipt and review
       of documentation showing that IBWC has implemented procedures and training to
       review contract files to ensure that all contracting officers and contracting officers‘
       representatives maintain all required documentation related to the award.




                                                9
ACRONYM LIST



Acronym          Definition
Department       Department of State
EPLS             Excluded Party List System
FAR              Federal Acquisition Regulation
FEMA             Federal Emergency Management Agency
FPDS-NG          Federal Procurement Data System-Next Generation
GAGAS            generally accepted government auditing standards
IBWC             International Boundary and Water Commission
OIG              Office of Inspector General
OMB              Office of Management and Budget
Recovery Act     American Recovery and Reinvestment Act of 2009
U.S.             United States




                                               10
       Appendix A




11


KEARNEY& Certified Public Accountants
COMPANY         and Consultants




              Finding 1- Contractor Eligibility/Qualifications Are Not Always Able To Be
              Determined

              Management Response to Recommendation 1
              The USIBWC Management generally concurs with the observations and
              recommendations shown in this report. The International Boundary and \Vater
              Commission OBWC) contracting officers will ensure that contracts are oot awarded until
              all required vetting actions are executed, documented, and propt::rly t11ed. This will be
              accomplished via the implementation ofan "awards checklist", which incorporates the
              pre-award qualification requirements, coupled by established peer review process per
              Policy and Procedures Manual, May 6, 2010. The reviews will be documented and dated
              before the contract is awarded. The Tl.Xluirement to require that Ihe "awards checklist" be
              in place prior to award is being incorporated into the   rswc Acquisitions ARRA SOP.


              Finding 2 - Documentation 0/ Contract NegotiatiolVl Needs To Be Improved

              Management Response to Recommendation 2
              The USIBWC Management gf...'D.crally concurs with the observations and
              recommendations shown in this report. The "award checklist" referenced in Finding 1
              also requires dOl,;umen ted price negotiations prior to award of the contract action
              consistent with mwe Acquisitions Policy and Procedures Manual, May 6, 2010 10
              ensure that the Government has obtained the best value in compliance with the Federal
              Acquisition Regulation.




              Finding J - Contract Monitoring Is Not ill Complianu With Current System

              Management Respon.fe to Recommendation 3
              The USIBWC Management generally concurs with the observations nnd
              recommendations shown in this report. The International Boundary and Water
              Commission is in the process of modi fying the existing ''payment checklist", which
              requires the submission of monthly reports prior to SUbmitting payment requests to ensure
              payments are properly reviewf...'lI prior to issuing payment and that aU monitoring of
              Recovery Act contracts is fully docwnented. The contracting officers will sign off on the
              monthly progress reports to indicate proper reviews have been conducted.

              Revisions to existing procedures will require contracting officers to en~we that all
              contracts are reviewed monthly and that all required documentation is completed by the
              contracting officer's representative consistent with (BWe Policy and Procedures Manual,
              May 6,2010. Monitoring documentation will be completed before invoices are approved
              to ensure that invoices are not impropl.'fly approved and paid. In addition, contracting
              officers should ~ign off on the monitoring rf...l'orts to indicate their review.




                                                          12

KEARNEY&
COMPANY    Certified Public Accountants
           and Consultants




       Finding 4 - Other Reporting Compliance Matter.fiI Need To Be Addressed

       l~anagement Response    to Recommendation 4
       The USIBWC Management generally concurs with the observations and
       recommendations shown in this report. The International Boundary and Water
       Commission (IBWC) will continue to comply with criteria contained in Office of
       Maoagement and Budget Memorandum (OMB) M-09-IS and the Federal Acquisition
       Regulation. The IBWC will provide monthly updates and training to ARRA ACOs to
       ensure full compliance with the IBWC Acquisition Division Administration of ARRA
       Requirements and Agency Review of Recipient Reporting Standard Operating
       Procedures. In addition, armual training will be incorporated into the Cos and CORs
       employee dcvclupment plans; acquisition staff is required to review applicable
       authorities.

       Mandatory documented review of all ARRA contract files will be pcrfonned to ensure
       that all contracting officers maintain all required documentation related to the award and
       that transparency reporting requirements are met timely (see response to
       Recommendation 4).




                                                   13

FRAUD, WASTE, ABUSE, OR MISMANAGEMENT
              of Federal programs
         and resources hurts everyone.

       Call the Office of Inspector General
                    HOTLINE
                   202-647-3320
                or 1-800-409-9926
         or e-mail oighotline@state.gov
      to report illegal or wasteful activities.

              You may also write to
           Office of Inspector General
            U.S. Department of State
              Post Office Box 9778
              Arlington, VA 22219
           Please visit our Web site at:
               http://oig.state.gov

        Cables to the Inspector General
       should be slugged “OIG Channel”
           to ensure confidentiality.
